(2 of 8)

No. 20-1765
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
BRENT LANG,
Petitioner-Appellant,
v.
ERICA HUSS, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

FILED

Dec 08, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: DONALD, Circuit Judge.
Brent Lang, a pro se Michigan prisoner, applies for a certificate of appealability (“COA”)
in his appeal from the district court’s denial of his 28 U.S.C. § 2254 petition for a writ of habeas
corpus. See 28 U.S.C. § 2253(c)(1)(A).
Angelo James was drinking on the porch of an abandoned home in Detroit one evening.
He was with James Watson, who sold marijuana and had a .357 handgun. At some point, James
saw Lang, whom he knew from the neighborhood, riding a bike and thereafter saw a different man
riding the same bike. Later in the evening, James heard a noise from the side of the house and saw
Lang and another man come around with guns drawn. Lang ordered them not to move, but James
ran into the house. As he did, shots were fired. James was hit in the arm and leg. Watson was
shot in his leg and chest. Watson entered the house too, and both men collapsed. James went to
the hospital, underwent surgery, and lived. He later identified Lang as one of the shooters. Watson
died from the bullet to his chest. See People v. Lang, No. 312543, 2014 WL 265528, at * 1 (Mich.
Ct. App. Jan. 23, 2014),perm. app, denied, 853 N.W.2d 353 (Mich. 2014).
A jury convicted Lang of second-degree murder, assault with intent to commit murder,
being a felon in possession of a firearm, and possession of a firearm during the commission of a
felony. The trial court sentenced him to thirty-five years and five months to sixty-five years of

*

r>

(3 of 8)
No. 20-1765
-2imprisonment. Lang’s direct appeal was unsuccessful. See Lang, 2014 WL 265528. So was his
motion for state post-conviction relief.
Lang then filed a § 2254 petition raising eight claims: (1) the weight of the evidence
preponderated against the verdict; (2) the evidence was insufficient to support his murder
conviction; (3) the prosecutor improperly bolstered the character of the complaining witness_
James—and his trial counsel was ineffective for failing to object to it; (4) an expert testified about
a report of an autopsy that he did not perform, violating due process and the Confrontation Clause;
(5) and (6) the prosecutor withheld exculpatory evidence in violation of Brady v. Maryland, 373
U S. 83 (1963); (7) the trial court violated his right to a fair trial and his ability to present a defense
when it ordered him to take antipsychotic medication during the trial; and (8) his appellate counsel
was ineffective. The district court denied the petition on the merits and declined to issue a COA.

Langv. Mackie, No. 17-cv-l 1975,2020 WL 3833068 (E.D. Mich. July 8, 2020). Lang now seeks
a COA on each of his claims.
A court may issue a COA “only if the applicant has made a substantial showing of the
denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). “That standard is met when ‘reasonable
jurists could debate whether (or, for that matter, agree that) the petition should have been resolved
in a different manner,”’ Welch v. United States, 136 S. Ct. 1257, 1263 (2016) (quoting Slack v.
McDaniel, 529 U.S. 473, 484 (2000)), or when “jurists could conclude the issues presented are
adequate to deserve encouragement to proceed further,” Miller-El v. Cockrell, 537 U.S. 322, 327
(2003).
In his first and second claims, Lang asserted that the weight of the evidence preponderated
against the verdict and that the evidence was insufficient to support his murder conviction. A
weight-of-the-evidence claim is a state-law argument for a new trial, see People v. McCray, 630
N.W.2d 633, 637 (Mich. Ct. App. 2001), so to the extent that Lang presented it as something
different from his insufficient-evidence claim, the district court held that it was not cognizable on
habeas review. Lang, 2020 WL 3833068, at *3 (citing Nash v. Eberlin, 258 F. App’x 761, 764 n.4
(6th Cir. 2007)). No reasonable jurist could debate that decision.

>

(4 of 8)
No. 20-1765
-3-

For an insufficient-evidence claim, a habeas court asks “whether, after viewing the
evidence in the light most favorable to the prosecution, any rational trier of fact could have found
the essential elements of the crime beyond a reasonable doubt.” Jackson v. Virginia, 443 U.S.
307, 319 (1979). Lang argued that the State did not prove that he was the person who killed
Watson. He argued that James’s identification of him was unreliable. He also argued that forensic
evidence suggested that Watson was shot with his own .357 revolver: police found the gun on the
porch, it had one bullet missing, and a .357 bullet jacket was found at the scene. The Michigan
Court of Appeals rejected these arguments.

The court noted that James’s “unequivocal

identification of’ Lang was sufficient to prove his identity. Lang, 2014 WL 265528, at *3. The
court also pointed out that a portion of a .357 bullet was found in Watson’s leg, and thus “it was
not unreasonable for the jury to conclude that [Watson] did not shoot himself in the chest.” Id.
at 2. The district court denied Lang’s claim because a witness’s credibility is not reviewable on
habeas and because a conviction can be supported by merely a single witness. Lang, 2020
WL 3833068, at *5 (citing United v. Osborne, 886 F.3d 604, 613 (6th Cir. 2018); Matthews v.
Abramajtys, 319 F.3d 780, 788 (6th Cir. 2003)). Lang attempts to poke holes in the evidence, but,
given James s identification of Lang, no reasonable jurist could debate the district court’s
determination that a reasonable jury could have found him guilty of murder.
In his third claim, Lang asserted that the prosecutor improperly bolstered James’s
testimony and vouched for his character during closing arguments and that defense counsel was
ineffective for failing to object to the prosecutor’s statements. “Bolstering occurs when the
prosecutor implies that the witness’s testimony is corroborated by evidence known to the
government but not known to the jury.” Johnson v. Bell, 525 F.3d 466, 482 (6th Cir. 2008)
(quoting United States v. Francis, 170 F.3d 546,550 (6th Cir. 1999)). Similarly, “vouching occurs
when a prosecutor supports the credibility of a witness by indicating a personal belief in the
witness’s credibility thereby placing the prestige of the [government] behind that witness.” Id.
(quoting Francis, 170 F.3d at 550).

>

0

(5 of 8)
No. 20-1765
-4-

After noting that James testified openly about his drinking and Watson’s marijuana
smoking and possession of a .357 handgun, the prosecutor stated that it “says a lot about his
character” and shows that he “was very upfront.” Lang, 2020 WL 3833068, at *6. The Michigan
Court of Appeals held that this was not improper bolstering because the prosecutor “did not
indicate that he had some type of special knowledge of the witness’s truthfulness.” Lang, 2014
WL 265528, at *4. The state court also held that, “[wjhile it is unfortunate that the prosecutor
used the word ‘character’ in his argument it is clear from that record that he was arguing not the
witnesses] character but his credibility.” Id. The court also noted that the trial court instructed
the jury that closing arguments were not evidence, Id.
A prosecutor “is free to argue that the jury should arrive at a particular conclusion based
upon the record evidence.” Wogenstahl v. Mitchell, 668 F.3d 307, 329 (6th Cir. 2012) (quoting
Caldwell v. Russell, 181 F.3d 731, 737 (6th Cir. 1999), abrogated on other grounds as recognized
by Mackey v. Dutton, 217 F.3d 399, 406 (6th Cir. 2000)). And a prosecutor’s conduct does not
rise to the level of a constitutional violation unless it “infected the trial with unfairness.” Darden
v. Wainwright, All U.S. 168,181 (1986). Given the state court’s determination that the prosecutor
did not engage in improper bolstering or vouching, and because the cited comments were brief and
isolated, no reasonable jurist could debate the district court’s denial of this claim.
Lang also argued that his attorney was ineffective for failing to object to the prosecutor’s
statements during closing arguments. To prove ineffective assistance of counsel, a habeas
petitioner must show that his attorney’s performance was objectively unreasonable and that it
caused him prejudice. Strickland v. Washington, 466 U.S. 668, 687 (1984). The Michigan Court
of Appeals determined that the prosecutor’s statements were not improper, and even so, that the
court’s instructions prevented any prejudice. Lang, 2014 WL 265528, at *5. In holding that Lang
did not show prejudice, the district court noted that, although Lang’s counsel did not object to the
prosecutor’s closing arguments, she challenged James’s credibility and his identification in several
other ways. Lang, 2020 WL 3833068, at *8. Thus, no reasonable jurist could debate the district
court’s determination that counsel was not ineffective.

(7 of 8)
No. 20-1765
-6Lang’s fifth and sixth claims alleged that the prosecutor violated Brady by withholding the
following exculpatory evidence relating to Watson: the bullet taken from his leg and tests of
fingerprint evidence from his gun and gunshot residue on him. The state trial court noted that the
bullet taken from Watson’s leg was disclosed to Lang by the prosecution during discovery. And
the district court pointed out that no fingerprint or gunshot-residue testing was performed, so none
was suppressed. Lang, 2020 WL 3833068, at *10/ Because a Brady violation requires “that
evidence must have been suppressed by the State, either willfully or inadvertently,” Strickler v.
Greene, 527 U.S. 263, 281-82 (1999), Lang has not made a substantial showing that a violation
occurred. Moreover, no reasonable jurist could debate the district court’s determination that the
State’s failure to conduct those tests was not a constitutional violation. Lang, 2020 WL 3833068,
at *11 (citing Arizona v. Youngblood, 488 U.S. 51, 58-59 (1988)).
Lang next claimed that the trial court violated his right to a fair trial and his ability to
present a defense by ordering him to take antipsychotic medication during the trial. The Michigan
trial court denied the claim as “vague,” while the district court noted that it was defense counsel
who requested that Lang be medicated and that the trial court found him competent to stand trial
and assist in his own defense “so long as he was on medication,” Lang, 2020 WL 3833068, at * 11.
“[T]he Constitution permits the Government involuntarily to administer antipsychotic drugs to a
mentally ill defendant facing serious criminal charges in order to render that defendant competent
to stand trial,” so long as it is “medically appropriate,” it is “substantially unlikely” to “undermine
the fairness of the trial,” and it “is necessary significantly to further important governmental trialrelated interests.” Sell v. United States, 539 U.S. 166, 179 (2003) (citing Riggins v. Nevada, 504
U.S. 127 (1992)). Given that Lang’s counsel requested the medication, and because Lang presents
mere general allegations that he was unable to assist in his defense, no reasonable jurist could
debate the district court’s denial of this claim.
In his final claim, Lang alleged that his appellate counsel was ineffective for failing to
present claims four through seven on direct appeal. “Counsel’s failure to raise an issue on appeal
amounts to ineffective assistance only if a reasonable probability exists that inclusion of the issue

(8 of 8)
No. 20-1765
-7-

would have changed the result of the appeal.” Henness v. Bagley, 644 F.3d 308, 317 (6th Cir.
2011). Given that, as demonstrated above, no reasonable jurist could debate the denial of these
claims, Lang has not made a substantial showing that his appellate attorney was ineffective for
failing to raise them.
Lang also argues that the state courts never resolved claims four through seven on the
merits because the courts cited no supporting authority in denying them. That argument is
unfounded. The Michigan trial court denied these claims in a thorough opinion, and the appellate
courts rejected Lang’s requests to appeal by citing applicable state procedural rules.
Accordingly, Lang’s COA application is DENIED.
ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

-

-Case 4:17-cv-1197S-MFI0K3 ECF No. 13 filed 07/08/20 P^p .829

Page 1 of 33

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
BRENT LANG,
Case No. 17-cv-11975
Hon. Matthew F. Leitman

Petitioner
v.
THOMAS MACKIE,
Respondent.

OPTNION AND ORDER (D DENYING THE HABEAS CORPUS PETITION
nrCF No. a (2* DECLINING TO ISSUE A CERTIFICATE OF
APPF A1 ARTLITY. AND (31 GRANTING LEAVE TO PROCEED IN
FORMA PAUPERIS ON APPEAL
Petitioner Brent Lang is a state prisoner in the custody of the Michigan
Department of Corrections. In 2012, ajury in the Wayne County Circuit Court found
Lang guilty of second-degree murder, Mich. Comp. Laws § 750.317, assault with
intent to commit murder, Mich. Comp. Laws § 750.83, felon in possession of a
firearm, Mich. Comp. Laws § 750.224f, and possession of a firearm during the
commission of a felony (“felony firearm”), Mich. Comp. Laws § 750.227b. The
convictions arose from a shooting at an abandoned house in Detroit, Michigan on
September 21, 2011. As Angelo James (“James”) and James Watson (“Watson”)
were relaxing on the porch of the abandoned house, two men came from behind and
1

Case 4:17-cv-11975-

iJK■DRG

ECFNo. 13 filed 07/08/20

elD.830

Page 2 of 33

shot them. Both men were shot twice. Watson died; James survived and testified
against Lang at trial.
On June 20, 2017, Lang filed a pro se petition for a writ of habeas corpus in
this Court pursuant to 28 U.S.C. § 2254. (See Pet., EOF No. 1.) In the petition, Lang
raises eight claims regarding the weight and sufficiency of the evidence, the
prosecutor s conduct, the testimony of a medical examiner, the alleged suppression
of, or failure to test, evidence, the trial court’s order regarding the administration of
antipsychotic medication, and the alleged ineffectiveness of his trial and appellate
attorneys. (See id., PageID.3-4.) The Court has carefully reviewed these claims and
concluded that they do not entitle Lang to federal habeas relief. Accordingly, for all
the reasons given below, the Court DENIES the petition.
I
Lang was charged with first-degree, premeditated murder, assault with intent
to commit murder, felon in possession of a firearm, and felony firearm. He was tried
before a jury in Wayne County Circuit Court. The Michigan Court of Appeals
summarized the relevant facts as follows:
Angelo James (James) was with the decedent, James
Watson (Watson), and another man, Courtney Putman, on
the porch of an abandoned home in Detroit, Michigan.
James was drinking on the nearby sidewalk when he saw
defendant riding down the street on a mountain bicycle,
dressed in all black and a hood. James recognized
2

Case 4:17-cv-11975-M®f)
RG ECFNo. 13 filed 07/08/20

elD.831

defendant from seeing him over the course of six years
within the neighborhood. James later saw a different man
riding the same bike.
At some point later James went to the store to buy more
alcohol, and returned to the porch with Watson. Putnam
went to his house across the street. While Watson was
rolling marijuana, James did not smoke any. Watson told
James that he had a .357 handgun nearby, and James knew
that Watson sold marijuana. James then heard a noise
from the side of the house and stood up to investigate.
There were streetlights that illuminated the area. James
saw defendant and another man come from the side of the
house, and both men were pointing guns at James and
Watson. Defendant ordered them not to move.
James initially froze. But as he turned to run into the
house, the shooting began, and he was hit in the arm and
leg. He heard more shots ring out, and saw Watson come
into the house. James stood up, but when he reached
Watson, both men collapsed. Watson was gasping, and
eventually became still. James heard Putnam calling his
name, and with help he was able to get to a car. On the
way to the hospital they saw an ambulance, which
transported James to the hospital. James testified that he
did not tell the police who shot him until after surgery
because he was in pain at first. He testified that he was
sure defendant was one of the men with a gun.
The police arrived at the house and recovered a .357
Taurus revolver from the porch. They also found James’s
Michigan identification in the vicinity of the gun, and in
the walls of the house they found what appeared to be bags
of marijuana. They also collected three 45 automatic
caliber fired cartridge cases, one nine millimeter Luger
caliber fired cartridge case, and a .357 magnum caliber
fired cartridge case. The five shot Taurus revolver that
was found contained four .357 magnum caliber cartridges.
3

Page 3 of 33

Case 4:17-cv-11975-

RG ECF No. 13 filed 07/08/20

gelD.832

Page 4 of 33

The police also discovered Watson, who had been shot in
the chest and leg. From Watson’s leg wound, they
extracted a fired bullet jacket and one core portion of the
jacketed bullet. The bullet to his chest perforated his aorta,
which was enough to kill him.
People v. Lang,, 2014 WL 265528, at *1 (Mich. Ct. App. Jan. 23, 2014).
Lang did not testify or present any witnesses at trial, and he stipulated that,
for purposes of the felon-in-possession count, he had a prior conviction and his right
to carry a firearm had not been restored. (See 7/23/12 Trial Tr., at 132-133, ECF No.
8-6, PagelD.463-464.) His defense was that there was no physical evidence linking
him to the crimes and that James’ identification ofhim as the shooter was not reliable
or credible. (See 7/24/12 Trial Tr. at 17-25, ECF No. 8-7, PageID.484-492.)
On July 24, 2012, the jury found Lang guilty of second-degree murder, as a
lesser-included offense of first-degree murder, and guilty, as charged, of assault with
intent to commit murder, felon in possession of a firearm, and felony firearm. (See
id. at 56-58, PageID.523-525; 7/24/12 Verdict Form, ECF No. 8-8, PageID.530531.) On August 7, 2012, the trial court sentenced Lang to five years in prison for
the felony-firearm conviction, and concurrent terms of thirty years, five months, to
sixty years in prison for the murder conviction, twenty-two and a half to thirty-five
years for the assault conviction, and one to five years for the felon-in-possession

4

Case 4:17-cv-11975-

ft-DRG ECF No. 13 filed 07/08/20 ^
gelD.833

Page 5 of 33

conviction. (See 8/7/12 Sentencing Tr. at 18-20, ECF No. 8-9, PageID.549-551;
Judgment of Sentence, ECF No. 8-10, PageID.569.)
Lang appealed his convictions as a matter of right in the Michigan Court of
Appeals. (See ECF No. 8-10.) He argued through appellate counsel that: (1) the
weight of the evidence preponderated against the verdict; (2) there was insufficient
evidence that he killed Watson; and (3) he was denied his constitutional rights by (a)
the prosecutor’s bolstering of James’s testimony and (b) trial counsel’s failure to
object to certain remarks made by the prosecutor. These arguments form the basis
for Lang s first three habeas claims. The Michigan Court of Appeals found no merit
in the arguments. It affirmed Lang’s convictions and concluded that:
[t]he verdicts were not against the great weight of the
evidence nor was there insufficient evidence to support
defendant’s convictions,
Moreover, there were no
instances of prosecutorial misconduct nor was defendant
denied the effective assistance of counsel.
Lang, 2014 WL 265528, at *5.
Lang raised these same three claims in an application for leave to appeal in
the Michigan Supreme Court. (See ECF No. 8-11.) On September 29, 2014, the
Michigan Supreme Court denied leave to appeal because it was not persuaded to
review the questions presented to that court. See People v. Lang, 853 N.W.2d 353
(Mich. 2014).

5

ft)

Case 4:17-cv-11975-M

RG ECFNo. 13 filed 07/08/20

(ft

elD.834

Page 6 of 33

On July 27, 2015, Lang filed a habeas corpus action in the United States
District Court for the Western District of Michigan. Chief United States District
Judge Robert J. Jonker summarily dismissed the petition without prejudice due to
Lang s failure to exhaust available state-court remedies. See Lang v. Trierweiler,
No. 15-cv-00771 (W.D. Mich. Aug. 6. 2015).
Lang subsequently filed a pro se motion for relief from judgment in the state
trial court. (See Mot. for Relief from J., ECF No. 8-12.) He argued that: (l)he was
deprived of his rights to compulsory process and a fair trial when the prosecution
failed to call the pathologist who performed Watson’s autopsy, called a different
doctor to testify about the autopsy, and “utilized [the second doctor’s] testimony to
incorporate the autopsy report into the record”; (2) the prosecution violated Watson’s
rights under Brady v. Maryland, 373 U.S. 83 (1963), when it withheld bullets
recovered during the autopsy; (3) the prosecution withheld gunshot residue,
fingerprint evidence, and casings; (4) the trial court placed an external constraint of
Lang’s ability to aid in his defense by ordering him to take psychotropic medication
during trial; and (5) appellate counsel was ineffective for failing to raise these claims
and a claim about trial counsel on direct appeal. These arguments form the basis for
habeas claims four through eight in the current petition.

6

1

)

■/

;

*

i

.Case 4:17-cv-11975-

■DRG ECF No, 13 filed 07/08/20

gelD.835

Page 7 of 33

The state trial court denied Lang’s post-conviction motion “for lack of merit in
the grounds presented.” (See Order Denying Mot. for Relief from J., ECF No. 8-13.)
Lang filed an application for leave to appeal the trial court’s decision in the Michigan
Court of Appeals, but that court denied leave to appeal for failure to establish that the
trial court erred when it denied Lang’s motion. See People v. Lang, No. 333444 (Mich.
Ct. App. Sept. 22, 2016). Lang then filed an application for leave to appeal in the
Michigan Supreme Court. That court denied leave to appeal on May 31, 2017,
because Lang had failed to establish an entitlement to relief under Michigan Court
Rule 6.508(D). See People v. Lang,, 895 N.W.2d 522 (Mich. 2017).
Lang subsequently filed his pro se habeas petition in this Court. (See Pet.,
ECF No. 1.) As described above, he raises the three claims that he presented to the
state courts on direct appeal and the five claims that he presented to the state courts
on collateral review of his convictions. (See id, PageID.3-4.)
Respondent Thomas Mackie argues in an answer to the petition that Lang’s
first claim (weight of the evidence) is not cognizable on habeas review and that the
first part of the third claim (prosecutorial misconduct) is procedurally defaulted.
Respondent also contends that Lang is not entitled to relief on his vague seventh
claim regarding medication and that the state courts’ rejection of Lang’s other claims

7

I

-•

e

^DRG ECFNo. 13 filed 07/08/20

Case 4:17-cv-11975-M

^
elD.836

Page 8 of 33

was not unreasonable. (See Answer in Opp’n to Pet. for Writ of Habeas Corpus, ECF
No. 7, PagelD. 19-20, 24.)
II
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”)
requires federal courts to uphold state court adjudications on the merits unless the
state court’s decision (1) “was contrary to, or involved an unreasonable application
of, clearly established Federal law, as determined by the Supreme Court of the
United States,” or (2) “was based on an unreasonable determination of the facts in
light of the evidence presented in the State court proceeding.” 28 U.S.C. § 2254(d).
“The question under AEDPA is not whether a federal court believes the state court’s
determination was incorrect but whether that determination was unreasonable — a
substantially higher threshold.” Schriro v. Landrigan, 550 U.S. 465, 473 (2007).
Ill
A
Lang first claims that “the weight of the evidence [at trial] so preponderates
against the verdict ... that due process of law [was] offended, the verdict cannot
stand, and a new trial should be ordered.” (Pet., ECF No. 1, PageID.3.)
Lang is not entitled to federal habeas relief on this claim. “[A] federal court
is only allowed to review issues of federal law in a habeas proceeding,” and a
8

Case 4:17-cv-11975-

DRG ECFNo. 13 filed 07/08/20

elD.837

Page 9 of 33

“manifest weight-of-the evidence argument is a state-law argument.” Nash v.
Eberlin, 258 F. App’x 761, 764 n.4 (6th Cir. 2007); see also Wright v. Duncan, 31
F.Supp.3d 378, 424-25 (N.D.N.Y. 2011) (collecting cases and noting that “[a] claim
that a jury verdict was against the weight of the evidence is purely a state law claim”
and is not cognizable on habeas review). Lang is therefore not entitled to federal
habeas relief on this claim.

The Court will now proceed to review Lang’s

constitutional challenge to the sufficiency of the evidence presented at trial.
B
Lang next asserts that he is entitled to federal habeas relief from his murder
conviction because the prosecution’s evidence was insufficient to prove beyond a
reasonable doubt that he killed Watson. (See Pet., ECF No. 1, PageID.3.) The
Michigan Court of Appeals considered this claim on direct review and rejected it:
Defendant next argues that there was insufficient evidence
to support his conviction for second-degree murder. We
review “de novo a challenge on appeal to the sufficiency
of the evidence.” People v. Ericksen, 288 Mich. App. 192,
195; 793 NW2d 120 (2010).
“In determining whether the prosecutor has presented
sufficient evidence to sustain a conviction, an appellate
court is required to take the evidence in the light most
favorable to the prosecutor” to ascertain “whether a
rational trier of fact could find the defendant guilty beyond
a reasonable doubt.” People v. Tennyson, 487 Mich. 730,
735; 790 NW2d 354 (2010) (internal quotations and
citations omitted). “All conflicts in the evidence must be
9

Case 4:17-cv-11975-M

RG ECF No. 13 filed ,07/08/20

elD.838

resolved in favor of the prosecution and we will not
interfere with the jury’s determinations regarding the
weight of the evidence and the credibility of the
witnesses.” People v. Unger, 278 Mich. App. 210, 222;
749 NW2d 272 (2008). However, “[circumstantial
evidence and reasonable inferences arising from that
evidence can constitute satisfactory proof of the elements
of a crime.” People v. Allen, 201 Mich. App. 98,100; 505
NW2d 869 (1993).
In the instant case, defendant challenges the identity
element supporting his conviction. “[I]t is well settled that
identity is an element of every offense.” People v. Yost,
278 Mich. App. 341, 356; 749 NW2d 753 (2008). While
defendant argues that his identify was not proven beyond
a reasonable doubt, we have recognized “that positive
identification by witnesses may be sufficient to support a
conviction of a crime.” People v. Davis, 241 Mich. App.
697, 700; 617 NW2d 381 (2000). Further, “credibility of
identification testimony is a question for the trier of fact
that we do not resolve anew.” Id,
From the evidence presented at trial, a rational trier of fact
could have reasonably determined that defendant was one
of the two men that James identified. The firearm and tool
mark expert testified that the casings he examined came
from at least three different weapons. James testified that
he saw defendant just before the shooting, James
identified defendant soon after the shooting as one of the
two men who pointed a gun at him and Watson. Based on
this unequivocal identification of [defendant, a rational
trier of fact could have concluded that defendant’s identity
as a shooter was proven beyond a reasonable doubt. While
defendant again argues that the prosecution could not
prove his identity as a shooter because Watson was shot
with his own weapon, as discussed supra, that argument is
without merit.
10

Page 10 of 33

Case 4:17-cv-1197^^-L-DRG ECF No. 13 filed 07/08/2(^^>
agelD.839

Page 11 of 33

Lang, 2014 WL 265528, at *3.
1
The clearly established federal law governing Lang’s sufficiency-of-theevidence claim is found in the line of United States Supreme Court decisions
concerning the level of proof necessaiy to satisfy the Due Process Clause.

In In re

Wmship, 397 U.S. 358 (1970), the Supreme Court held that “the Due Process Clause
protects the accused against conviction except upon proof beyond a reasonable doubt
of every fact necessary to constitute the crime with which he is charged.” Id. at 364.
And in Jackson v. Virginia, 443 U.S. 307 (1979), the Supreme Court determined that
sufficient evidence supports a conviction if, “after viewing the evidence in the light
most favorable to the prosecution, any rational trier of fact could have found the
essential elements of the crime beyond a reasonable doubt.” Id. at 319 (emphasis in
original).
Review of insufficiency-of-the-evidence claims under Jackson is especially
deferential in the habeas context. As the United States Court of Appeals for the
Sixth Circuit recently explained, under AEDPA,
a federal court’s “review of a state-court conviction for
sufficiency of the evidence is very limited.” Thomas v.
Stephenson, 898 F.3d 693, 698 (6th Cir. 2018).
Sufficiency-of-the-evidence claims, in light of both
Jackson and AEDPA, face a high bar in habeas
11

-Case 4:17-cv-11975-lA

DRG ECF No. 13 filed 07/08/20

elD.840

Page 12 of 33

proceedings because they are subject to two layers of
deference:
First, on direct appeal, it is the responsibility of the
jury not the court—to decide what conclusions
should be drawn from evidence admitted at trial. A
reviewing court may set aside the jury’s verdict on
the ground of insufficient evidence only if no
rational trier of fact could have agreed with the jury.
And second, on habeas review, a federal court may
not overturn a state court decision rejecting a
sufficiency of the evidence challenge simply
because the federal court disagrees with the state
court. The federal court instead may do so only if
the state court decision was objectively
unreasonable.
Coleman v. Johnson, 566 U.S. 650, 651, 132 S. Ct. 2060,
182 L.Ed.2d 978 (2012) (per curiam) (citations and
internal quotation marks omitted).
Tackett v- Trierweiler, 956 F.3d 358, 367 (6th Cir. 2020); accord Tanner v. Yukins,
867 F.3d 661, 672 (6th Cir. 2017).
2

Lang has failed to show that the Michigan Court of Appeals’ decision denying
relief on this claim was contrary to, or unreasonably applied, clearly established
federal law. As the Sixth Circuit has recognized, “the testimony of a single witness
is sufficient to support a conviction.” United States v. Osborne, 886 F.3d 604, 613
(6th Cir. 2018) (quoting United States v. Washington, 702 F.3d 886, 891 (6th Cir.
2012)). And a reviewing court “does not reweigh the evidence or redetermine the
12

•Case 4:17-cv-11975-l^®b

RG ECFNo. 13 filed 07/08/20

elD.841

Page 13 of 33

credibility of witnesses . . • •” Matthews v. Abramajtys, 319 F.3d 780, 788 (6th Cir.
2003). “It is the province of the factfinder to weigh the probative value of the
evidence and resolve any conflicts in testimony.” Id.
Here, an eyewitness to the shooting - James - testified that he was “sure”
Lang was the shooter. (7/23/12 Trial Tr. at 35, ECF No. 8-6, PageID.366.) James
testified that he looked directly at Lang before the shooting, recognized Lang’s
height and clothes, and that nothing obstructed his view of Lang. (See id. at 15-16,
19, 24-25, 49, ECF No. 8-6, PagelD. 346-347, 350, 355-356,

380.) James further

testified that he could identify Lang because he knew Lang’s face from seeing Lang
in the neighborhood for about six years before the shooting incident, and because he
had seen Lang a few days before the shooting. (See id.)

Finally, Lang cross-

examined James with respect to James’s identification, but the jury ultimately
credited James’s positive identification of Lang as the shooter.
Under these circumstances, it was not unreasonable for the Michigan Court of
Appeals to reject Lang’s insufficiency-of-the-evidence claim, Lang is therefore not
entitled to federal habeas relief on this claim.
C

Lang next alleges that the prosecutor committed misconduct and violated
Lang’s constitutional rights when the prosecutor wrongly bolstered James’s
13

Case 4:17-cv-11975-J^b

RG ECF No. 13 filed 07/08/20

elD.842

Page 14 of 33

character and testimony twice during closing arguments. First, Lang objects to the
prosecutor’s statement that:
I think a lot of things [Janies] said were very, very says a lot about his character. He was very open about
what was going on out there. He told you they were
drinking, told you that the deceased was smoking weed.
He could have painted another picture^;] he didn’t do that.
He told us everything that was happening, That was
corroborated by Dr. Diaz also when Dr. Diaz said that
there was a toxicology report performed on the deceased
and the deceased did indeed have marijuana in his system,
exactly what Mr. James told us.
(7/24/12 Trial Tr. at 9, ECF No. 8-7, PageID.476; emphasis added). Second, Lang
objects to the prosecutor’s statement that:
So, one of the bullets that came out of the deceased is
consistent with what Mr. James told us. Mr. James was
very upfront, he said the victim told him he carries a gun,
he told me he carries a 357. And low and behold, the bullet
that is taken out of the deceased is a 357.
The State Police tells you that the gun that they analyzed
held five shots, one shot is missing. There was (sic) four
shots in that revolver. Well, that’s consistent with a
person that, and I think says a great deal about his
character, because he tells you that the deceased carried
a gun or at least he told him he carried a gun, he said it was
a 357, the round that is retrieved from his body is a 357,
it’s a five shot according to the State Police, only one
bullet is missing so there’s four remaining bullets in that
gun. Well, we can narrow it down to Mr. James didn’t
shoot himself, the victim who survived. It’s consistent
with what Mr. James said, he said there were two people
out there, two people had guns that he saw, that he knew
14

G ECF No. 13 filed 07/08/20

Pc^D.843

Page 15 of 33

Case 4:17-cv-11975-MFIj

they had guns, okay. That he saw them, Mr. Lang was one
of them, Mr. Lang was the person that was pointing one at
him saying don’t move and he decided to move. Now, we
know the deceased didn’t shoot himself in the chest and
server (sic) his aorta. So, everything that Mr. James is
telling us is consistent, is corroborated with everything
that we’ve heard.
{Id. at 14-15, PageID.481-482; emphasis added).
Lang raised this claim on direct review, and the Michigan Court of Appeals
rejected it under a review for “plain error”1:
The test for prosecutorial misconduct is whether the
defendant was denied a fair and impartial trial. People v.
Dobek, 274 Mich. App. 58, 63; 732 NW2d 546 (2007).
“Generally, prosecutors are accorded great latitude
regarding their arguments and conduct.” People v.
Bahoda, 448 Mich. 261, 282; 531 NW2d 659 (1995)
(quotation marks, citation, and brackets omitted).
“Prosecutors have discretion on how to argue the facts and
reasonable inferences arising therefrom, and are not
limited to presenting their arguments in the blandest terms
Respondent argues that this claim is procedurally defaulted because the Michigan
Court of Appeals reviewed it for “plain error” after Lang failed to object to the
prosecution’s statements at trial. While it is true that “[fjederal habeas courts
generally refuse to hear claims ‘defaulted ... in state court pursuant to an
independent and adequate state procedural rule,”’ Johnson v. Lee, 136 S. Ct. 1802,
1803-04 (2016) (quoting Coleman v. Thompson, 501 U.S. 722, 750 (1991)), a
procedural default ordinarily “‘is not a jurisdictional matter,’ ” id. at 1806 (quoting
Trest v. Cain, 522 U.S. 87, 89 (1997)). In the interest ofjudicial economy, a federal
court may bypass a procedural-default question when the merits of the claim are
easily resolvable against the habeas petitioner. Lambrix v. Singletary, 520 U.S. 518,
525 (1997). The Court proceeds to address the merits of Lang’s prosecutorialmisconduct claim because that approach is more efficient than analyzing whether
Lang’s claim is procedurally defaulted.
15

Case 4:17-cv-11975-MFL^fc
G ECFNo.13 filed 07/08/20

Pa

.844

possible.” People v. Meissner, 294 Mich. App. 438, 456;
812 NW2d 37 (2011). Although the prosecution may not
vouch for the credibility of a witness, it may comment on
whether a witness is worthy of belief. People v. Schultz,
246 Mich. App. 695, 712; 635 NW2d 491 (2001); People
v, Launsburry, 217 Mich. App. 358, 361; 551 NW2d 460
(1996).
In the instant case, defendant argues that the prosecution
improperly vouched for James’s credibility when stating
that because James disclosed that he and Watson were
drinking alcohol, had marijuana, and had a gun, he had
character for truthfulness. This was not improper
vouching. The prosecution did not indicate that he had
some type of special knowledge of the witness’s
truthfulness. Meissner, 294 Mich. App. at 456. While it
is unfortunate that the prosecutor used the word
“character” in his argument it is clear from the record that
he was arguing not the witnesses] character but his
credibility. The prosecution merely argued that based on
the disclosures the witness made, he was worthy of belief
because he was giving truthful testimony. Dobek, 274
Mich. App. at 66 (a prosecutor is allowed to present
“arguments from the facts and testimony that the witnesses
at issue were credible or worthy of belief.”).
Moreover, the trial court in the instant case instructed the
jury that the lawyer’s statements and arguments were not
evidence, and “[jjurors are presumed to follow their
instructions, and instructions are presumed to cure most
errors.” People v. Abraham, 256 Mich. App. 265, 279;
662 NW2d 836 (2003). Thus, defendant has failed to
demonstrate prosecutorial misconduct.
Lang, 2014 WL 265528, at *4 (footnote omitted).

16

Page 16 of 33

Case 4:17-cv-11975-r^-DRG ECF No. 13 filed 07/08/20 H
gelD.845

Page 17 of 33

Lang has not shown that this decision was contrary to, or an unreasonable
application of, clearly established federal law. Federal habeas courts assess a state
court’s decision on a prosecutorial-misconduct claim under Darden v. Wainwright,
477 U.S. 168 (1986). Under Darden, “is not enough that the prosecutors’ remarks
were undesirable or even universally condemned. If a prosecutor’s comments were
improper, the question becomes whether they so infected the trial with unfairness as
to make the resulting conviction a denial of due process.” Stermer v. Warren,
F.3d

2020 WL 2503269, at *13 (6th Cir. May 15, 2020) (internal quotation

marks omitted).
Lang has not established that the Michigan Court of Appeals unreasonably
rejected his bolstering claim. Improper “[bolstering occurs when the prosecutor
implies that the witnesses’s testimony is corroborated by evidence known the
government but not known to the jury.” United States v. Acosta, 924 F.3d 288, 299
(6th Cir. 2019). Here, Lang has not shown that the prosecutor improperly bolstered
James’s testimony with information that was unknown to the defense. Nor has he
shown that the prosecutor implied that James’s testimony was corroborated by
evidence known only to the prosecution and not to the jury. Thus, Lang has

not

established that the Michigan Court of Appeals unreasonably rejected his bolstering
claim.

17

Case 4:17-cv-11975-M^}

RG ECFNo. 13 filed 07/08/20

elD.846

Page 18 of 33

Lang has also not demonstrated that the Michigan Court of Appeals
unreasonably rejected his vouching claim. He has not shown that the prosecutor’s
isolated comment about James’s character, even if it were improper vouching, so
infected the trial as to render it fundamentally unfair. Moreover, the trial
court
instructed the jurors at the beginning of the case and during its charge to the juiy that
the attorneys’ remarks were not evidence and that the jurors should only consider
the properly admitted evidence. (See 7/19/12 Trial Tr.

at 108-109, ECF No. 8-5,

PagelD.313-314; 7/24/12 Trial Tr. at 32-33, ECF No. 8-7, PageID.499-500.) The
trial court also instructed the jurors that it was theirjob to decide which witnesses to
believe and how important the witnesses’ testimony was. (See 7/19/12 Trial Tr. at
109-110, ECF No. 8-5, PagelD. 314-315.) Given the trial court’s jury instructions,
and for the other reasons stated above, Lang has not shown that the Michigan Court
of Appeals’ denial of this claim was unreasonable. Lang is therefore not entitled to
federal habeas relief on this claim.
D
Lang next argues that his trial counsel was ineffective when counsel failed to
object to the prosecutor’s remarks about James’s testimony. {See Pet

ECFNo. 1,

PageID.3; Lang Reply Br., ECF No. 9, PageID.807.) Lang raised this claim on direct
review, and the Michigan Court of Appeals rejected it:

18

Case 4:17-cv-11975-M®)

RG ECF No. 13 filed 07/08/20

ID.847

Lastly, defendant argues that he was denied the effective
assistance of counsel when his counsel failed to object to
the prosecutor's improper statements during closing
argument. “Whether a person has been denied effective
assistance of counsel is a mixed question of fact and
constitutional law.” People v. LeBlanc, 465 Mich. 575,
579; 640 NW2d 246 (2002). When reviewing a claim of
ineffective assistance of counsel that has not been
preserved for appellate review, a reviewing court is limited
to mistakes apparent on the record. People v. Davis, 250
Mich. App 357, 368; 649 NW2d 94 (2002).
In order to establish a claim for ineffective assistance of
counsel, a defendant must first demonstrate that
“counsel’s representation fell below an objective standard
of reasonableness,” which requires a showing “that
counsel’s performance was deficient.” Strickland v.
Washington, 466 U.S. 668, 687; 104 S Ct 2052; 80
L.Ed.2d 674 (1984); People v. Grant, 470 Mich. 477,485;
684 NW2d 686 (2004). In making this showing, a
defendant must overcome the strong presumption that trial
counsel’s behavior was sound trial strategy. Grant, 470
Mich, at 485. The second prong a defendant must
demonstrate is that “the deficient performance prejudiced
the defense,” which “requires showing that counsel’s
errors were so serious as to deprive the defendant of a fair
trial.. . .” Strickland, 466 U.S. at 687. In other words, a
defendant must demonstrate that “there was a reasonable
probability that the outcome of the trial would have been
different had defense counsel” adequately performed.
Grant, 470 Mich, at 496.

As discussed above, the prosecution’s statements were
proper. “Because the comments were proper, any
objection to the prosecutor’s arguments would have been
futile. Counsel is not ineffective for failing to make a
futile objection.” People v. Thomas, 260 Mich. App 450,
19

Page 19 of 33.

Case 4:17-cv-11975-lJ®i

DRG ECF No. 13 filed 07/08/20

elD.848

Page 20 of 33

457; 678 NW2d 631 (2004). Moreover, any minimal
prejudice was alleviated with the trial court’s instruction,
and it did not result in a reasonable probability that the
outcome of the trial would have been different. Grant, 470
Mich, at 496.
Lang, 2014 WL 265528, at *4-*5 (headings omitted).
The Michigan Court of Appeals correctly recognized that an ineffectiveassistance-of-counsel claim has two components. A petitioner must show that
counsel’s performance was deficient and that the deficiency prejudiced the defense.
See Strickland v. Washington., 466 U.S. 668, 687 (1984). Because the Michig
Court of Appeals adjudicated Lang’s ineffective assistance of counsel claim

an

on the

merits, AEDPA’s deferential standard of review applies to the claim. See Kernan v.
Hinojosa, 136 S. Ct. 1603, 1604 (2016). Under AEDPA, “the question” for this
Court “is whether there is any reasonable argument that counsel satisfied
Strickland’s deferential standard.” Richter, 562 U.S. at 105.
Lang has not shown that the Michigan Court of Appeals’ conclusion that he
did not suffer prejudice was an unreasonable application of Strickland. Although
Lang s trial counsel did not object to the prosecutor’s remarks about James’s
openness and character, counsel challenged James’s credibility and identification of
Lang in other ways. She cross-examined and re-cross-examined James about his
ability to see Lang during the crime, his familiarity with Lang, his initial failure to

20

Gase 4:17-cv-11975-lJfc-DRG

^ielD.849

Page 21 of 33

ECF No. 13 filed 07/08/20

inform people that Lang had shot him, and his state identification card, which was
found near Watson ’s gun. (See 7/23/12 Trial Tr. at 35-54, 56-58, ECF No. 8-6,
PageID.366-385,387-89.) Trial counsel raised these

same issues during her closing

argument that followed the prosecutor’s disputed remarks. During that argument,
trial counsel also pointed out, among other things, that there

was no physical

evidence to support the prosecution’s theory and that, even though James claimed to
have known Lang for six years, he had never spoken to Lang. Trial counsel also
emphasized the fact that James failed to mention the shooter’s name to either his
friend Putnam or to the ambulance driver on his way to the hospital. (See 7/24/12
Trial Tr. at 17-25, ECF No. 8-7, PageID.484-492.) On this record, Lang has
shown that the Michigan Court of Appeals unreasonably concluded that he did

not
not

suffer any prejudice.
For all of these reasons, Lang is not entitled to federal habeas relief on this
claim.
E
Lang next argues that he was denied his constitutional right of confrontation
when the prosecution called Dr. Francisco Diaz to testify about Watson

’s autopsy,

even though Dr. Diaz did not perform that autopsy or draft the autopsy report. Lang
further argues that the introduction of the autopsy report - through Dr. Diaz - falls

21

Case 4:17-cv-119?

FL-DRG ECF No. 13 filed 07/08/2

ft

PagelD.850

Page 22 of 33

squarely within the prohibition against hearsay because Dr. Diaz did not draft the
report. Finally, Lang argues that Dr. Diaz’s remarks at trial were testimonial under
Davis v. Washington, 547 U.S. 813 (2006), because Dr. Diaz did more than establish
the manner of death. (See Reply Br., ECF No. 9, PageID.807-808.)
The state trial court considered Lang’s objection to Dr. Diaz’s testimony in
connection with Lang’s motion for relief from judgment, and rejected it:
At trial the forensic examiner testified that the pathologist
who performed the autopsy had retired and was therefore
unavailable. There was a stipulation that Dr. Diaz was
qualified to testify as an expert in the field of pathology.
[....] The defendant has not shown prejudice by the
unavailability of the original forensic pathologist. The
defendant speculates without support that the original
pathologist would have testified that the decedent died
from the gunshot to his leg instead of the wound in his
chest. The defendant’s claim of actual innocence is legally
insufficient; the defendant is not alleging that he was not
present at the scene or that he did not shoot the decedent.
(Order Denying Mot. for Relief from J., ECF No. 8-13, PageID.708-709) (footnotes
omitted).
To the extent Lang argues that admission of Dr. Diaz’s testimony and/or the
autopsy report violated Michigan’s hearsay rules, “[w]hat is or is not hearsay
evidence in a state court trial is governed by state law,” Johnson v. Renico, 314
F.Supp.2d 700, 705 (E.D. Mich. 2004), and state law questions are not cognizable
on federal habeas review. See, e.g., Byrd v. Collins, 209 F.3d 486, 528 (6th Cir.
22

' Case 4:17-CV“11975-

DRG ECF No. 13- filed 07/08/20

elD.851

Page 23 of 33

2000) (citing Marshall v. Lonberger, 459 U.S. 422, 438 n. 6 (1983) (“[T]he Due
Process Clause does not permit the federal courts to engage in a finely tuned review
of the wisdom of state evidentiary rules.”)). Moreover, Lang has not identified any
clearly established federal law that an autopsy report, or testimony based on an
autopsy report, is testimonial. And he has not shown how he is entitled to federal
habeas relief on this claim in the absence of such clearly established federal law.
See, e.g., Mitchell v. Kelly, 520 F. App’x 329, 331 (6th Cir. 2013) (affirming denial
of habeas petition on the ground that there is a “lack of Supreme Court precedent
establishing that an autopsy report is testimonial”); Portes v. Capra, 420 F.Supp.3d
49, 55-56 (E.D.N.Y. 2018) (denying habeas petition and holding that the admission
at trial of an autopsy report “cannot form the basis for habeas relief... because of
the .. . uncertainty of how the Supreme Court would rule on this issue”).
For all of these reasons, Lang is not entitled to federal habeas relief on this
claim.
F
Lang next alleges that the prosecution committed a “Brady violation” when it
purportedly withheld exculpatory evidence regarding a bullet recovered from
Watson s leg during the autopsy. Watson was shot twice, once in the leg and once
in the chest, and Lang insists that the order of the bullet wounds was a material fact

23

' Case 4:17-cv-11975-M

RG ECF No. 13 filed 07/08/20

elD.852

Page 24 of 33

in dispute. He maintains that the gunshot to Watson’s right leg — and not the shot to
Watson’s chest - could have been the fatal gunshot. Thus, Lang says that when the
prosecution suppressed detailed information about the bullet’s size and weight, it
deprived him of a substantial defense. (See Pet., ECF No. 1, PageID.4; Lang Reply
Br., ECF No. 9, PageID.809.)
Lang’s claim derives from the Supreme Court’s decision in Brady v.
Maryland, 373 U.S. 83 (1963). The Supreme Court held in Brady that “suppression
by the prosecution of evidence favorable to an accused upon request violates due
process where the evidence is material, either to guilt or to punishment, irrespective
of the good faith or bad faith of the prosecution.” Id. at 87. A Brady claim has three
components:
The evidence at issue must be favorable to the accused,
either because it is exculpatory, or because it is
impeaching; that evidence must have been suppressed by
the State, either willfully or inadvertently; and prejudice
must have ensued.
Strickler v. Greene, 527 U.S. 263, 281-82 (1999)).
Lang raised this claim in his motion for relief from judgment, and the state
trial court rejected it. It held that “[tjhere was no Brady violation because the .357
bullet was disclosed to the defense during discovery.” (Order Denying Mot. for
Relief from J., ECF No. 8-13, PageID.709.)
24

■ ' Case4:17-cv-11975-lJfcr-DRG

ECF No. 13 filed 07/08/20

gelD.853

Page 25 of 33

Lang has failed to establish that the state trial court’s denial of this claim was
contrary to, or an unreasonable application of, clearly established federal law.
Simply put, Lang has not shown that the bullet from Watson’s leg was suppressed
and not disclosed to his defense. And to the extent that Lang argues that the State
should have conducted additional tests with respect to that bullet, such a claim does
not arise under Brady. For all of these reasons, Lang has not shown that the state
trial court’s denial of this claim was unreasonable. Lang is therefore not entitled to
federal habeas relief on this claim.
G
Lang alleges next that the prosecution suppressed gunshot residue, fingerprint
evidence on the gun found at the crime scene, and a bullet casing taken from the
Watson’s leg in violation ofBrady, supra. (See Pet., ECF No. 1, PageID.4.) Watson
raised this claim in his motion for relief from judgment, and the state trial court
rejected it:
[t]he defendant has not shown a Brady violation because
fingerprint analysis on the decedent’s gun and gunpowder
residue tests on the decedent would not have affected the
outcome of the trial. There was circumstantial evidence
that the decedent may have shot himself in the back of the
leg; however, the gunshot wound to the chest was the fatal
wound. In addition, the surviving victim testified that he
knew of the defendant from the neighborhood for several
years and saw the defendant and another man ambush him
and the decedent at the side of the porch.
25

^fc-DRG ECF No. 13 filed 07/08/20 flfgelD.854 Page 26 of 33

. ' .Case 4:17-cv-11975-W

(Order Denying Mot. for Relief from J., ECF No. 8-13, PageID.709.)
Lang has failed to show that the state trial court’s denial of this Brady claim
was contrary to, or an unreasonable application of, clearly established federal law.
Although Lang styles this claim as a Brady violation, he seems to actually be
claiming that the police failed to test Watson’s clothing, gun, and the core portion of
the bullet found in Watson’s body for potentially exculpatory evidence. Lang
contends that testing would have established who fired the .357 revolver found at
the crime scene and thus who committed the murder. (See Reply Br., ECF No. 9,
PageID.809, 811-812.) But Lang does not appear to be arguing that any evidence
was ever suppressed. This claim therefore does not fall within the ambit of Brady.
Moreover, to the extent Lang argues that the State violated his constitutional
rights when it failed to conduct the testing he identifies, the claim also fails. Lang
has not shown how the Due Process Clause of the Fourteenth Amendment is
“violated when the police fail to use a particular investigatory tool.” Arizona v.
Youngblood, 488 U.S. 51, 58-59 (1988). Nor has he shown that police “have a
constitutional duty to perform any particular tests.” Id.
For all of these reasons, Lang has failed to show that he is entitled to federal
habeas relief on this claim.

26

Case 4:17-cv-119754®_

-DRG ECF No. 13 filed 07/08/20

agelD.855 Page 27 of 33

H
Lang next asserts that the state trial court deprived him of a fair and impartial
trial when it ordered medical professionals to administer antipsychotic medication
to him during trial to render him competent. Lang contends that the trial

court’s

order placed an external constraint on his ability to aid in his defense. Lang also
contends that the trial court failed to conduct a proper inquiry into whether the side
effects of the medication interfered with his ability to assist counsel in preparing a
defense. (See Pet., ECF No. 1, PageID.4; Reply Br. at 14-15, ECF No. 9,
PagelD.813-814.)
Lang raised this claim in his motion for relief from judgment, and the state
trial court rejected it because Lang’s “vague argument [did] not establish any
error
that would entitle[] him to relief from judgment.” (Order Denying Mot. for Relief
from I, ECF No. 8-13, PageID.709.)
Lang has not shown that the state trial court’s decision was contrary to, or an
unreasonable application of, clearly established federal law. The record before the
Court indicates that Lang’s trial counsel asked the trial court to ensure that Lang was
taking his medications. Trial counsel made this request after both she and Lang’s
mother informed the trial court that Lang would hear voices and become paranoid
when he did not take his medications. Lang’s mother also told the trial court that

27

v -Case 4:17-cv-11975-

[Jfc DRG

^|^elD.856

Page 28 of 33

ECF No. 13 filed 07/08/20

when Lang was taking his medications, he was able to comprehend matters and he
was rational and stable. The trial court then agreed to make sure that Lang was
properly medicated and agreed to have Lang evaluated for competency and criminal
responsibility. (See 3/27/12 Trial Tr. at 45-52, ECF No. 8-3, PageID.187-194.) At
the competency hearing a few months later, trial counsel noted that, according to the
criminal responsibility report, Lang was competent and able to assist at trial so long
as he was on medication. (See 7/10/12 Competency Hr’g Tr. at 2-5, ECF No. 8-4,
PagelD.201-204.) Under these circumstances, it was not unreasonable for the state
trial court to conclude that the Lang had failed to establish an entitlement to relief
on this claim. Moreover, Lang has not alleged that the medication caused him to
suffer from side effects. Nor has he alleged that he was unwilling to take the
medication or explained how it interfered with his ability to assist in his defense.
For all of these reasons, Lang is not entitled to federal habeas relief on this
claim.
I
Finally, Lang alleges that he was denied his constitutional right to the effective
assistance of counsel because his appellate counsel failed to raise all of his claims,
including a claim about trial counsel, on appeal to the Michigan Court of Appeals.
(See Pet., ECF No. 1, PagelD. 4.) In Lang’s reply brief, he further asserts that, if

28

' Gase4:17-cv-11975-M^)RG ECF No. 13 filed 07/08/20

l^blD.857

Page 29 of 33

trial counsel had objected to Dr. Diaz’s testimony and had asked the medical
examiner who had performed Watson’s autopsy to testify, that testimony would have
cast doubt on the prosecution’s case. (Reply Br., ECF No. 9, PagelD.815-816.)
Lang raised this claim in his motion for relief from judgment, and the state
trial court rejected it:
The defendant claims that he received ineffective
assistance of his trial counsel and his appellate counsel.
The defendant argues that his trial attorney failed to insist
that the original forensic examiner be called to testify
regarding the “chain-of-command” of the .357 bullet
fragment. He claims his appellate attorney denied him his
constitutional right to effective assistance when he failed
to raise the issue of ineffective assistance of trial counsel
and the other claims presented herein in his direct appeal.
In order to establish ineffective assistance of counsel, a
defendant must demonstrate (1) that counsel’s
performance was below an objective standard of
reasonableness under prevailing professional norms, and
(2) that there is a reasonable probability that, but for
counsel’s error, the result of the proceedings would have
been different. A reasonable probability is a probability
sufficient to undermine confidence in the outcome.
Effective assistance of counsel is presumed, and the
defendant bears a heavy burden of proving otherwise. To
support a claim that appellate counsel’s failure to raise
meritorious issues on appeal denied him guaranteed
constitutional rights, the defendant must show that his
appellate counsel’s performance fell below an objective
standard of reasonableness and that appellate counsel’s
representation was constitutionally deficient.

29

Case 4:17-cv-11975-MFL-DRG ECF No. 13 filed 07/08/20

PagelD.858

Page 30 of 33

The court having found that the issues presented in this
appeal have no merit, the court also finds that the trial and
appellate attorneys were not deficient in their
representation of the defendant at trial or on appeal. The
defendant has not shown an error that affected his
substantial rights or deprived him of a fair trial. There is
no significant possibility that the defendant is innocent or
that a miscarriage of justice occurred. The defendant’s
motion for relief from judgment is hereby denied for lack
of merit in the grounds presented.
(Order Denying Mot. for Relief from J., ECF No. 8-13, PagelD.709-710 (footnotes
omitted).)
Lang has not shown that this decision was contrary to, or an unreasonable
application of, clearly established federal law.

On habeas review, the proper

standard for evaluating a claim about appellate counsel is the standard enunciated in
Strickland, supra. See Smith v. Robbins, 528 U.S. 259, 285 (2000). To prevail on
his claim about appellate counsel, Lang must demonstrate (1) that his appellate
attorney acted unreasonably in failing to discover and raise non-frivolous issues on
appeal, and (2) there is a reasonable probability the defendant would have prevailed
on appeal if his attorney had raised the issues. Id. (citing Strickland, 466 U.S. at 68791,694).
For all of the reasons stated above, Lang has not established that any of the
claims that he says should have been raised on appeal were meritorious. Thus, Lang
has not shown that his appellate counsel was ineffective for failing to raise them.
30

^

Case4:17-cv-11975-MFL-DRG ECF No. 13 filed 07/08/20

PagelD.859

Page 31 of 33

See, e.g., Greer v. Mitchell, 264 F.3d 663, 676 (6th Cir. 2001) (“[B]y definition,
appellate counsel cannot be ineffective for a failure to raise an issue that lacks
merit”); Coley v. Bagley, 706 F.3d 741, 752 (6th Cir. 2013) (“Omitting meritless
arguments is neither professionally unreasonable nor prejudicial”). Thus, Lang has
not demonstrated that the state trial court’s rejection of this claim was unreasonable.
Lang is therefore not entitled to federal habeas relief on this claim.
IV
In order to appeal this Court’s decision, Lang must obtain a certificate of
appealability. To do so, Lang must make a substantial showing of the denial of a
constitutional right. See 28 U.S.C. § 2253(c)(2). The substantial showing threshold
is satisfied when a petitioner demonstrates “that reasonable jurists would find the
district court’s assessment of the constitutional claims debatable or wrong.” Slack v.
McDaniel, 529 U.S. 473, 484 (2000). A federal district court may grant or deny a
certificate of appealability when the court issues a ruling on the habeas petition. See
Castro v. United States 310 F.3d 900, 901 (6th Cir. 2002).
Here, jurists of reason would not debate the Court’s conclusion that Lang has
failed to demonstrate entitlement to federal habeas relief with respect to his claims
because they are all devoid of merit. The Court therefore denies Lang a certificate
of appealability.
31

- Case 4:17-cv-11975-M

*

RG ECFNo. 13 filed 07/08/20

fl|elD.860

Page 32 of 33

Although this Court declines to issue Lang a certificate of appealability, the
standard for granting an application for leave to proceed informa pauperis on appeal
is not as strict as the standard for certificates of appealability. See Foster v. Ludwick,
208 F.Supp.2d 750, 764 (E.D. Mich. 2002). While a certificate of appealability
requires a substantial showing of the denial of a constitutional right, a court may
grant in forma pauperis status on appeal if it finds that an appeal is being taken in
good faith. See id. at 764-65; 28 U.S.C. § 1915(a)(3); Fed. R. App. 24 (a). Although
jurists of reason would not debate this Court’s resolution of Lang’s claims, an appeal
could be taken in good faith. Therefore, Lang may proceed in forma pauperis on
appeal.
V
Accordingly, for all the reasons stated above, the Court (1) DENIES WITH
PREJUDICE Lang’s petition for a writ of habeas corpus (ECF No. 1), (2) DENIES
Lang a certificate of appealability, and (3) GRANTS Lang permission to appeal in
forma pauperis.
IT IS SO ORDERED.

Dated: July 8, 2020

s/Matthew F. Leitman
MATTHEW F. LEITMAN
UNITED STATES DISTRICT JUDGE

32

Case 4:17-cv-11975-Fvl®D

RG ECF No. 13 filed 07/08/20

^^e!D.861

Page 33 of 33

I hereby certify that a copy of the foregoing document was served upon the
parties and/or counsel of record on July 8,2020, by electronic means and/or ordinary
mail.
s/Hollv A. Monda
Case Manager
(810)341-9764

33

STATE OF MICHIGAN
COURT OF APPEALS

PEOPLE OF THE STATE OF MICHIGAN,

UNPUBLISHED
January 23, 2014

Plaintiff-Appellee,
v

No. 312543
Wayne Circuit Court
LCNo. 11-011901-FC

BRENT LANG,
Defendant-Appellant
Before: Stephens, P.J., and M. J. Kelly and Riordan, JJ.
Per Curiam.

j

Defendant appeals as of right his jury trial convictions of second-degree murder, MCL
750.317, assault with intent to commit murder, MCL 750.83, possession ofa firearm by a felon
(felon in possession), MCL 750.224f and possession of a firearm during the commission of a
felony (felony-firearm), second-offense, MCL 750.227b. Defendant was sentenced to 30 years
and 5 months to 60 years for second-degree murder, 22 years and 6 months to 35 years for
assault wife intent to murder, 1 to 5 years for felon in possession, and 5 years for felony-firearm
We affirm.
I. FACTUAL BACKGROUND
Angelo James (James) was wife the decedent, James Watson (Watson), and another man,
Courtney Putman, on the porch ofan abandoned home inDetroi, Michigan. James was drinking
on the nearby sidewalk when he saw defendant riding down die street on a mountain bicycfe,
dressed in all black and a hood. James recognized defendant from seeing him over the course of
six years within foe neighborhood. James later saw a different man riding foe same bike.
At some point later James went to foe store to buy more alcohol, and returned to foe
porch with Watson. Putnam went to his house across foe street While Watson was rolling
mar!uana, James did not smoke any. Watson told James that he had a .357 handgun nearby, and
James knew that Watson sold marijuana. James then heard a noise from the side of the house
and stood up to investigate. There were streetlights that illuminated foe area. James saw
defendant and another man come from the side offoe house, and both men were pointxig guns at
James and Watson. Defendant ordered them not to move.
James initial^ froze. But as he turned to run into foe house, foe shootxig began, and he
was hit in foe arm and leg. He heard more shots rxig out and saw Watson come into foe house..

-r

Janies stood up, but when he reached Watson, both men collapsed. Watson was gaspir^?, and
eventually became stilL James heard Putnam calling his name, and with help he was able to get
to a car. On the way to the hospital they saw an ambulance, which transported James to the
hospital James testified that he did not tell the police who shot him until after surgery because
he was in pain at first. He testified that he was sure defendant was one ofdie men with a gun.
The police arrived at the house and recovered a .357 Taurus revolver from the porch.
They also found James’s Michigan identification in die vicinity of die gun, and ii die walls of
the house they found what appeared to be bags of marijuana. They also collected three 45
automatic caliber fired cartridge cases, one nine millimeter Luger caliber fired cartridge case,
and a .357 magnum cahber fired cartridge case. The five shot Taurus revoVer that was found
contained four .357 magnum caliber cartridges.
The police also discovered Watson, who had been shot in the chest and leg. From
Watson’s leg wound, they extracted a fired bullet jacket and one core portion of the jacketed
bullet. The bullet to his chest perforated his aorta, which was enough to kill him.
Defondant was convicted of second-degree murder, MCL 750.317, assault with intent to
commit murder, MCL 750.83, felon in possession, MCL 750.224$ and felony-firearm, secondoffense, MCL 750.227b. Defendant now appeal on several grounds.
n. GREAT WEIGHT OF THE EVIDENCE
A. STANDARD OF REVIEW
i

Defendant first argues that his convictions were against the great weight ofdie evidence.
“We review unpreserved claims, that file verdict was against file great weight ofthe evidence for
plain error affecting the defendant’s substantial rights.” People v Brantley, 296 Mich App 546,
553; 823 NW2d290 (2012).
B. ANALYSIS
A verdict is against fiie great weight offile evidence when “the evidence preponderates so
heavily against file verdict that it would be a miscarriage ofjustice to allow file verdict to stand.”
People v Lacalamita, 286 Mich App 467, 469; 780 NW2d 311 (2009). “General^, a verdict
may be vacated only when the evidence does not reasonably support it and it was more likefy file
result of causes outside the record, such as passion, prejudice, sympathy, or some other
extraneous affluence” Id. Moreover, conflicting testimony or questions concemmg the
credibility of the witnesses generally are not sufficient grounds for granting a new trial
Brantley’, 296 Mich App at 553.
Defendant argues that James’s identification testimony was unreliable because he only
glimpsed two people ai an unlit area, his attention was; on the guns, and he did not immediately
tell the police who shot hkn. Yet, this is a challenge to the credibility of James’s testinony,
which is within file jury’s purview and will not be second-guessed on appeal Lacalamita, 286
Mich App at 469. Furthermore, James testified that although it was dark outside, streetlights
illuminated file area, allowing him to see defendant clearly. He also testified that he was sure
defendant was one offile two men who accosted them, as he was familiar with defendant from
-2-

•V

seeing him in the neighborhood for die past six years. A reasonable trier of feet could have
found James’s testimony believable and credible.
Defendant also argues that his convictions were agaiist the great weight of the evidence
because Watson was somehow shot by his own weapon, the .357 magnum Taurus revolver,
which conflicted with James’s version ofevents. The firearm and tool mark expert testified that
they recovered a fired bullet jacket, item 10-A, and a core portion ofthe jacketed bullet, item 10B, from Watson’s leg. While the expert could not identify from which weapon the core portion
ofthejacketed bullet came, he'testified that foe fired bullet jacket came from the Taurus revolver
recovered at foe scene. Thus, defendant contends that foe verdict was against foe great weight of
foe evidence because the victin was shot with his own gun, foe Taurus revolver.
However, no testinony was offered regarding the origin offoe bullet that hit Watson in
foe chest. The medical examiner testified that the gunshot to Watson’s chest would have been
enough to kill him Moreover, as the prosecutor argued ii closing, because foe Taurus revol/er
had five shots and one was missing, it was not unreasonable for the jury to conclude that foe
victim did not shoot himself in foe chest with foe Taurus revolver. While defendant also argues
that James’s explanation ofthe events does not explain how the victim was shot in foe leg, James
testified that he turned to run into foe home r%ht before foe shooting began Thus, James’s
testimony did not conflict with foe physical evidence, as he simpfy did not know who was
shooting or which guns were used.1
Thus, defendant has foiled to establish that “the evidence preponderates so heavily
against the verdict that it would be a miscarriage of justice to allow foe verdict to stand.”
Lacalamita, 286 Mich App at 469.
III. SUFFICIENCY OF THE EVIDENCE
A. STANDARD OF REVIEW
Defendant next argues that there was insufficient evidence to support his conviction for
second-degree murder. We review “de novo a challenge on appeal to the sufficiency of foe
evidence.” People v Ericksert, 288 Mich App 192,195; 793 NW2d 120 (2010).
B. ANALYSIS
“In determining whether the prosecutor has presented sufficient evidence to sustain a
conviction, an appellate court is required to take foe evidence in foe fight most favorable to the
prosecutor” to ascertain “whether a rational trier of feet could fed foe defendant guilty beyond a

1 While defendant conciisively states that foe two perpetrators used foe 45 automatic weapon
and foe nine millimeter Luger, that is merely an inference based on James’s testimony that the
victin owned a .357 handgun and that the Taurus was found at foe scene. No direct evidence
was submitted regarding which offoe weapons foe two perpetrators were holdiig or used during
foe shooting.

-3-

reasonable doubt.” People v Tennyson, 487 Mich 730, 735; 790 NW2d 354 (2010) (internal
quotations and citations omitted). “All conflicts in the evidence must be resolved in favor ofthe
prosecution and we will not interfere with the jury’s detenninatiDns regarding the weight of die
evidence and the credibility of the witnesses.” People v Unger, 278 Mich App 210, 222; 749
NW2d 272 (2008). However, it[c]ircumstantial evidence and reasonable inferences arising from
that evidence can constitute satisfactory proof of the elements of a crime.” People v Allen, 201
Mich App 98,100; 505 NW2d 869 (1993).
In the instant case, defendant challenges the identity element supporting his conviction
“[I]t is well settled that identity is an element of every offense.” People v Yost, 278 Mich App
341, 356; 749 NW2d 753 (2008). While defendant argues that his identify was not proven
beyond a reasonable doubt, we have recognized “that positive identification by witnesses may be
sufficient to support a conviction of a crime ” People v Davis, 241 Mich App 697, 700; 617
NW2d 381 (2000). Further, “credibility of identification testimony is a question for the trier of
feet drat we do not resolve anew.” Id.
From the evidence presented at trial, a rational trier of feet could have reasonably
determined that defendant was one of the two men that James identified. The firearm and tool
mark expert testified that the casiigs he examined came from at least three different weapons.
James testified that he saw defendant just before the shooting. James identified defendant soon
after the shooting as one ofdie two men who pointed a gun at him and Watson. Based on this
unequivocal identification of defendant, a rational trier of feet could have concluded that
defendant’s identity as a shooter was proven beyond a reasonable doubt. While defendant again
argues that the prosecution could not prove his identity as a shooter because Watson was shot
with his own weapon, as discussed supra, that argument e without merit.
IV. PROSECUTORIAL MISCONDUCT
A. STANDARD OF REVIEW
Defendant next asserts that die prosecution improperly vouched for James’s credibility
during closiig argument. “Where a defendant foils to object to an alleged prosecutorial
inpropriety, the issue is reviewed for plain error.” People v Aldrich, 246 Mich App 101, 110;
631 NW2d67 (2001). ‘"Reversal is warranted only when plain error resulted in the conviction of
an actually innocent defendant or seriously affected die fairness, integrity, or public reputation of
judicial proceedings.” Unger, 278 Mich App at 235 (quotation marks and citation omitted).
B. ANALYSIS
The test for prosecutorial misconduct is whether the defendant was denied a for and
impartial trial People v Dobek, 274 Mich App 58, 63; 732 NW2d 546 (2007). “Generally,
prosecutors are accorded great latitude regarding their arguments and conduct.” People v
Bahoda, 448 Mich 261, 282; 531 NW2d 659 (1995) (quotation marks, citation, and brackets
omitted). “Prosecutors have discretion on how to argue die facts and reasonable inferences
arising therefrom, and are not limited to presenting their arguments in the blandest terms
possible.” People v Meissner, 294 Mich App 438, 456; 812 NW2d 37 (2011). Although the
prosecution may not vouch for the credibility ofa witness, it may comment on whether a witness
-4-

is worthy ofbelief People v Schultz, 246 Mich App 695, 712; 635 NW2d 491 (2001); People v
Launsburry, 217 Mich App 358,361; 551 NW2d 460 (1996).
In the instant case, defendant argues that the prosecution mproperfy vouched for James’s
credibility when stating that because James disclosed that he and Watson were drinkiig alcohol,
had marijuana, and had a gun, he had character for truthfulness. This was not improper
vouching. The prosecution did not indicate that he had some type of special knowledge of the
witness’s truthfulness. Meissner, 294 Mich App at 456. While it is unfortunate that the
prosecutor used foe word “character” in his argument it b clear from the record that he was
arguing not the witnesses character but his credibility. The prosecution merely argued that based
on the disclosures foe witness made, he was worthy of belief because he was gating truthful
testimony. Dobek, 274 Mich App at 66 (a prosecutor is allowed to present “arguments from the
facts and testimony that the witnesses at issue were credible or worthy ofbefief”) '
Moreover, foe trial court in the instant case instructed the jury that the lawyer’s
statements and arguments were not evidence, and “[j jurors are presumed to follow their
instructions, and instructions are presumed to cure most errors.” People v Abraham, 256 Mich
App 265, 279; 662 NW2d 836 (2003). Thus, defendant has foiled to demonstrate prosecutorial
misconduct.
V. EFFECTIVE ASSISTANCE OF COUNSEL
A. STANDARD OF REVIEW
Lastly, defendant argues that he was denied the effective assistance of counsel when his
counsel foiled to object to the prosecutor’s improper statements during closing argument
“Whether a person has been denied effective assistance of counsel is a mixed question of feet
and constitutional law.” People v LeBlanc, 465 Mich 575, 579; 640 NW2d 246 (2002). When
reviewing a clain of ineffective assistance of counsel that has not been preserved for appellate
review, a reviewing court is limited to mistakes apparent on the record. People v Davis, 250
Mich App 357,368; 649 NW2d 94 (2002).
B. ANALYSIS
In order to establish a flaim for ineffective assistance of counsel, a defendant must first
demonstrate that “counsel’s representation fell below an objective standard of reasonableness,
which requires a showing “that counsel’s performance was deficient.” Strickland v Washington,
466 US 668, 687; 104 S Ct 2052; 80 L Ed 2d 674 (1984); People v Grant, 470 Mich 477, 485;
684 NW2d 686 (2004). In making this showing, a defendant must overcome foe strong
preginrepttnn that trill counsel’s behavior was sound trial strategy. Grant, 470 Mich at 485. The

2 Because there were no errors, there was no cumulative effect necessitating reversal People v
Brown, 279 Mich App 116, 146; 755 NW2d 664 (2008) (quotation marks and citation omitted)
(“Absent the establishment of errors, there can be no cumulative effect of errors meriting
reversal”).
-5-

second prong a defendant must demonstrate is that “the deficient performance prejudiced die
defense,” which “requires showing that counsel’s errors were so serious as to deprive the .
defendant of a fair trial. . . Strickland, 466 US at 687. In other words, a defendant must
demonstrate that “there was a reasonable probability that the outcome of the trial would have
been different had defense counsel” adequately performed. Grant, 470 Mich at 496.
As discussed above, the prosecution’s statements were proper. “Because foe comments
were proper, any objection to the prosecutor’s arguments would have been futile. Counsel is not
ineffective for foiling to make a futile objection.” People v Thomas, 260 Mich App 450, 457;
678 NW2d 631 (2004). Moreover, ary minimal prejudice was alleviated with foe trial court’s
instruction, and it did not result in a reasonable probability that the outcome of foe trial would .
have been different. Grant, 470 Mich at 496.
VI. CONCLUSION
Hie verdicts were not agaiist the great wejght ofthe evidence nor was. there insufficient
evidence to support defendant’s convictions. Moreover, there were no instances ofprosecutorial
misconduct nor was defendant denied foe effective assistance ofcounsel. We affirm.
/s/ Cynthia Diane Stephens
■/s/Michael J. Kelly
/s/ Michael J. Riordan

-6-

Order

Michigan Supreme Court
Lansing, Michigan

September 29,2014

Robert P. Young, Jr.,
Chiefjustice

149210 & (67)

• Michael F. Cavanagjh
Stephen J. Markman
Mary Beth Kelly
Brian K. Zahra
Bridget M. McCormack
David F. Viviano,
• Justices

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
•Hr',

v
BRENT LANG,
Defendant-Appellant.

SC: 149210
COA: 312543
Wayne CC: 11-011901-FC

On order of the Court, the application for leave to appeal the January 23, 2014
judgment of the Court of Appeals is considered, and it is DENIED, because we are not
persuaded that the questions presented should be reviewed by this Court. The motion to
remand is DENIED.

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
September 29,2014
10922

Clerk

#

STATE OF MICHIGAN
IN THE THIRD CIRCUIT COURT FOR THE COUNTY OF WAYNE
CRIMINAL DIVISION
PEOPLE OF THE STATE OF MICHIGAN,

Plaintiff,
v.

Case No 11-011901-01-FC
Hon. Dana Margaret Hathaway
On blind draw from the
Hon. Gregory Bill

BRENT LANG,
Defendant.

ORDER DENYING MOTION
FOR RELIEF FROM JUDGMENT
At a session of Court held at the Frank Murphy Flail
of Justice in the City of Detroit, Wayne County,
Michigan, on: _____________________________
PRESENT: HON. DANA MARGARET HATHAWAY
This matter comes before the Court on the defendant’s motion for relief from judgment
pursuant to MCR 6.500 et seq. The Court being advised in the premises and after a review of the
court record finds and orders as follows:
The defendant was convicted by a jury of second degree murder, assault with intent to
murder, felony firearm (second offense) and felon in possession of a firearm on July 24, 2012.
He was sentenced to 30 years and 5 months to 60 years for the murder conviction, 22 years and 6
months months to 35 years for the assault, 1 to 5 years for being a felon in possession of a
firearm all to be served consecutive to five years for the felony firearm conviction. His
conviction was affirmed by the court of appeals on January 23, 2014 and leave to appeal was

1

denied by the Supreme Court on September 29, 2014. The defendant now brings this motion for
relief from judgment.
Standard of Review
The standard of review for a motion brought under MCR 6.500 et seq is de novo.'
However, before this court may grant the defendant’s motion for relief the defendant must
establish that he is entitled to relief.1 Courts must be mindful that judgments or verdicts shall not
be reversed absent a miscarriage ofjustice.2
Statement of Facts
The testimony of the surviving victim was that he and the decedent were sitting on the
porch of an abandoned house from which the decedent sold marijuana. The victim had been
drinking and the decedent had smoked marijuana. The surviving victim testified that he saw the
defendant, whom he had known from the neighborhood for several years, ride past on a bicycle.
Later he saw another man ride past on the same bicycle going the same direction. Very late in
the evening the victim heard a noise by the side of the house and upon going to investigate,
observed the defendant and another man pointing guns at them. The defendant ordered them not
to move but the surviving victim ran into the house as shooting started. He was hit in the arm
and the leg. The decedent stumbled inside the house with fatal wounds. The victim testified he
i

was sure the defendant was one of the men with guns.

MCR 6.508(D) states: The court may not grant relief to the defendant if the motion (1) seeks relief from a
judgment of conviction and sentence that still is subject to challenge on appeal; (2) alleges grounds for relief which
were decided against the defendant in a prior appeal, unless the defendant establishes that a retroactive change in the
law has undermined the pnor decision; (3) alleges grounds for relief, other than jurisdictional defects, which could
have been raised on appeal, unless the defendant demonstrates (a) good cause and (b) actual prejudice. The court
innocenTofthe crime C3USe” requirement if il concIudes 11131 there is 3 significant possibility that the defendant is
2 MCL §769.26; MSA §28.1096.
2

The victim testified that the decedent had a .357 magnum handgun which the police
found on the porch. The police also collected one .357 caliber fired cartridge, three 45 caliber
fired cases and one 9 millimeter Luger caliber fired cartridge outside of the house. The
decedent’s 5-shot handgun contained four unfired cartridges.
I. Alleged Exculpatory Evidence
The defendant alleges several related claims that the court will address together. In claim
(l)3 the defendant alleges that he was denied a fair trial when the prosecution failed to call the
forensic pathologist who performed the autopsy on the decedent to testify regarding the .357
cartridge that the defendant alleges is exculpatory evidence. In claim (2) the defendant alleges
---------- ———--- --

that the prosecution committed a Brady4 violation when it failed call the original forensic
examiner to testify about the .357 cartridge fragment that was retrieved from the decedent’s leg.
In claim (3) the defendant alleges that the prosecutor committed a Brady violation when it
withheld fingerprint and gun residue tests from the defense.
The defendant’s claims center upon his notion that the original forensic pathologist would
have testified about the “chain-of-command”5 of the bullet that came from the decedent’s body
which would have shown that the defendant is actually innocent because the decedent died from
a self-inflicted gunshot wound. The defendant claims that the prosecutor did not show that the
original pathologist was unavailable to testify thus denying the defense the right to cross examine
him about the bullet recovered during the autopsy. The defendant claims that a gunshot residue

3 The defendant mislabeled the claims within his brief in support, starting with “Issue 2.” There is no page headed
“Issue 1.” This court has renumbered them for the sake of making order from the defendant’s motion.
4 Brady v State ofMaryland, 373 US 83; 83 S Ct 1194; 10 L Ed 2d 215 (1963).
5 The court assumes that the defendant refers to the chain of custody of die collected evidence, rather than chain-ofcommand. The chain-of-custody of the bullet fragment in this case is inconsequential since the case rested on the
surviving witness’s testimony. Furthermore, the defendant has not established that there was a break in the chain of
custody in the handling and marking of the evidence in this case.
3

test on the decedent and a fingerprint evidence test on his gun should have been performed to
provide the defendant with exculpatory evidence. The defendant’s claims are without merit.
At trial the forensic examiner testified that the pathologist who performed the autopsy
had retired and was therefore unavailable.6 There was a stipulation that Dr. Diaz was qualified to
testify as an expert in the field of pathology.7 The forensic examiner testified from the autopsy
report that there was a gunshot wound to the right side of the chest and that the bullet perforated
the right lung, the aorta, the left lung, and then exited through the chest on the left side.8 The
witness testified that this wound would have been sufficient to kill him.9 The forensic examiner
also testified that a bullet was recovered in the muscle of the posterior lower right leg.10 That
bullet was turned over to a liaison of the investigating law enforcement agency.11 A firearms
expert testified that the bullet recovered from the decedent’s leg was from the decedent’s fiveshot .357 magnum that held four bullets.12 The circumstantial evidence inferred thatthe^.
decedent’s fatal chest wound came from one of his attacker’s guns and that the decedent may *
have shot himself in the lower leg. There is no evidence that the decedent died from his leg
wound.
The defendant has not established that the .357 fragment is exculpatory evidence that
would have cast doubt on the prosecutor’s case against the defendant. The defendant has not
shown prejudice by the unavailability of the original forensic pathologist. The defendant
speculates without support that the original pathologist would have testified that the decedent
died from the gunshot to his leg instead of the wound in his chest. The defendant’s claim of
6 Trial Trans, vol II p 64.
7 Id at 60.
8 Id at 62.
9 Id at 63.
10 Id.
11 Id at 64.
12 Id at 79.
4

actual innocence is legally insufficient; the defendant is not alleging that he was not present at
the scene or that he did not shoot the decedent.
There was no Brady violation because the .357 bullet was disclosed to the defense during
discovery. The

defendant has not shown a Brady violation because fingerprint analysis on the

der residue tests on the decedent would not have affected the
decedent’s gun and gunpow
outcome of the trial. There was circumstantial evidence that the decedent may have shot himself
in the back of the leg; however

, the gunshot wound to the chest was the fatal wound. In addition,

the surviving victim testified that he knew of the defendant from the neighborhood for several
years

and saw the defendant and another man ambush him and the decedent at the side of the

porch.
II.

Forced psychotropic medication
The defendant alleges that he was deprived of a fair trial because, following a psychiatric

examination, the trial court ordered that the defendant was to receive continued psychotropic
medication to maintain his competency. He claims that the continued medication hindered his
defense and that the court should have done something to ensure that he could aid his attorney in
his own defense at trial. The defendant’s vague argument does not establish any error that would
entitled him to relief from judgment.
III.

Ineffective assistance of counsel
The defendant claims that he received ineffective assistance of his trial counsel and his

appellate counsel. The defendant argues that his trial attorney failed to insist that the original
forensic examiner be called to testify regarding the “chain-of-command” of the .357 bullet
fragment. He claims his appellate attorney denied him his constitutional right to effective

5

assistance when he failed to raise the issue of ineffective assistance of trial counsel and the other
claims presented herein in his direct appeal.
In order to establish ineffective assistance of counsel, a defendant must demonstrate (1)
that counsel's performance was below an objective standard of reasonableness under prevailing
professional norms, and (2) that there is a reasonable probability that, but for counsel's error, the
result of the proceedings would have been different.13 A reasonable probability is a probability
sufficient to undermine confidence in the outcome.14 Effective assistance of counsel is
presumed, and the defendant bears a heavy burden of proving otherwise.15 To support a claim
that appellate counsel’s failure to raise meritorious issues on appeal denied him guaranteed
constitutional rights, the defendant must show that his appellate counsel’s performance fell
below an objective standard of reasonableness and that appellate counsel’s representation was
constitutionally deficient.16
The court having found that the issues presented in this appeal have no merit, the court
also finds that the trial and appellate attorneys were not deficient in their representation of the
defendant at trial or on appeal. The defendant has not shown an error that affected his substantial
rights or deprived him of a fair trial. There is no significant possibility that the defendant is
innocent or that a miscarriage ofjustice occurred. The defendant’s motion for relief from
judgment is hereby denied for lack of merit in the grounds presented.
-V '»

.

A TRUE COPY
* CATHY M. GARRETT
waYRih county clerk

8Y1

A

1
HON. DANA MARGARET HATHAWAY

DEPUTY CCW

Hon. Dana Margaret Hathaway

13 Strickland v Washington, 466 US 668, 687; 104 S Ct 2052 (1984).
14 People v Carbin, 463 Mich 590,600 (2001); People v Pickens, 446 Mich 298 (1994).
15 People v Stanaway, 446 Mich 643, 687 (1994).
16People v Reed, 449 Mich 375; 535 NW2d 496 (1995); People v Pickens, supra.

6

Court of Appeals, State of Michigan
ORDER
People of MI v Brent Lang

Christopher M. Murray
Presiding Judge

Docket No.

333444

Karen M. Fort Hood

LC No.

11-011901-01 -FC

Michael J. Riordan
Judges

this case only.

The Court orders that the motion to waive fees is GRANTED and fees are WAIVED for

, , . L It is further ordered that the delayed application for leave to appeal is DENIED because
defendant has failed to establish that the trial court erred in denying the motion for relief from judgment.

i

Presiding Judge

r- .

A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk , on
U.

o
H

SEP 2 2 2016
Date

Order

Michigan Supreme Court
Lansing, Michigan
Stephen J. Marknun,
ChiefJustice

May 31,2017

Brian K. Zahra
Bridget M. McCormack
David F. Viviano
Richard H. Bernstein
Joan L. Larsen
Kurds T. Wilder,
Justices

154740
PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
SC: 154740

v

COA: 333444

Wayne CC: 11-011901-FC
BRENT LANG,
Defendant-Appellant.
k

On order of the Court, the application for leave to appeal the September 22, 2016;
order of the Court of Appeals is considered, and it is DENIED, because the defendant has
failed to meet the burden of establishing entitlement to relief under MCR 6.508(D).

!r

'!

I, Lany S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of die order entered at the direction of the Court.
May 31,2017
Clerk

Additional material
from this filing is
available in the
Clerk's Office.

